                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

11   Case Number: A04050038
                                                                                      11           Page 1 of 1



                                                          Closing

          A university1 informed OIG of its investigation of a former graduate student (the ~ubject),~
                                                                                                     whose
          NSF supported research374allegedly contained fabricated data in two chapters of his thesis5 and
          submitted in two publications.6,7Both publications were withdrawn prior to the investigation.

          The university's investigation concluded that some of the data used in one publication had been
          fabricated. The university rescinded the subject's Ph.D. degree.

           As part of our investigation, we reviewed the documentation provided by the university. Based on
           our evaluation of the case, we requested additional documentation8not considered by the university.9

          Although we find the university's conclusion not unreasonable, our evaluation of all the available
          evidence leads us to conclude that it is equally likely that the subject fabricated the data or did not do
          so. Thus, we determined that the preponderance of the evidence does not support proceeding with an
          additional federal investigation.

          This case is closed and no further action will be taken.




I'
 NSF OIG Fonn 2 (1 1/02)
